                           U.S. COMMODITY FUTURES TRADING COMMISSION
                                                  Three Lafayette Centre
                                       1155 21st Street, NW, Washington, DC 20581
                                               Telephone: (202) 418-5000
                                                Facsimile: (202) 418-5521
                                                        www.cftc.gov



   Office of the
Inspector General
                                            MEMORANDUM




TO:              Mark P. Wetjen, Acting Chainnan

FROM:            A. Roy Lavik, Inspector General       ~
DATE:            February 20, 2014

SUBJECT: Audit of CFTC Compliance with the Federal Information Security Management
         Act of2002 (FISMA)

Attached is the Commodity Futures Trading Commission (CFTC) Office of the Inspector General
(OIG) audit report on the CFTC's compliance with FISMA 1 during FY2013. FISMA requires the
CFTC to develop, document, and implement an agency-wide Infonnation Security Program to
protect its infonnation and infonnation systems, including those provided or managed by another
agency, contractor, or source. Additionally, FISMA requires the CFTC to undergo an annual
independent evaluation of its lnfonnation Security Program and practices, as well as an
assessment of its compliance with FISMA requirements.

The CFTC-OIG contracted with an independent public accounting finn, Brown & Company
CPAs, PLLC to conduct this audit. The OIG concurs with Brown & Company's findings in the
attached audit report. The findings were discussed with the Chieflnfonnation Officer and staffs,
their comments are included in the final report. Elements of this audit were included in the annual
Inspector General template file submitted to the Office of Management and Budget on November
20,2013.

Should you have any questions regarding this report, please do not hesitate to contact me.




 1
     Known as Title Ill of the E-Govemment Act of2002 (E-Gov) (Public Law [P.L.] 107-347, December 17,2002.
                    U.S. COMMODITY FUTURES TRADING COMMISSION
                                     Three Lafayette Centre
                          1155 21st Street, NW, Washington, DC 20581
                                  Telephone: (202) 418-5000
                                   Facsimile: (202) 418-5521
                                         www.cftc.gov



   Office of the
Inspector General




     Content of the FISMA Audit report is not posted on the web due to
     security risk.
